February 2010
Report No. EVAL-10-001


The FDIC’s Loan Modification Program
                                     Executive Summary



                                     The FDIC’s Loan Modification Program
                                                                                    Report No. EVAL-10-001
                                                                                             February 2010

Why We Did This Evaluation
The recent financial crisis has resulted in dramatic increases in home mortgage defaults and foreclosures,
and imposed significant costs on borrowers, lenders, mortgage investors, and neighborhoods. In
response, the FDIC developed a loan modification program (LMP) at IndyMac Federal Bank, FSB
(IndyMac), an FDIC conservatorship, to place borrowers into affordable mortgages while achieving an
improved return for bankers and investors over foreclosure. Since November 2008, the FDIC has
required institutions assuming FDIC failed bank assets to implement some form of loan modification
program on single-family assets acquired under shared-loss agreements (SLAs). We performed this
assignment as part of our efforts to evaluate the controls over, and operations of, new corporate programs.

The objectives of our evaluation were to assess the:

    •   Extent to which the FDIC has required LMP implementation at assuming institutions.

    •   Internal controls over the program and how those controls compare to the Department of the
        Treasury’s (Treasury) Home Affordable Modification Program (HAMP), including controls
        established to detect and prevent program fraud.


Background
In 2008, the FDIC initiated a systematic and streamlined approach to loan modifications at IndyMac, by
turning troubled loans into performing loans and, thereby, avoiding unnecessary and costly foreclosures.
The FDIC’s LMP requires that a successful loan modification candidate result in a (1) positive net present
value as opposed to a foreclosure option and (2) monthly payment representing no more than 31 percent
of the borrower’s gross monthly income. The FDIC’s LMP process has to be straightforward and
efficient in order to modify a large number of “at-risk” mortgages in a short period of time.

In February 2009, the Obama Administration announced The Homeowner Affordability and Stability
Plan, a $75 billion federal program designed to provide for a sweeping loan modification program
targeted at borrowers who are at risk of foreclosure. The plan tasked Treasury with developing and
implementing uniform guidance for the government’s loan modification efforts. Treasury announced its
HAMP in March 2009, which built on the work of Congressional leaders and the FDIC's LMP efforts.


Evaluation Results
The FDIC frequently enters in SLAs with institutions that assume failed bank assets. These SLAs require
the assuming institution to implement some form of LMP on the acquired single-family loans. Through
December 31, 2009, the FDIC had entered into 86 SLAs for single-family loans totaling $53.2 billion.
The FDIC’s LMP is the default program for SLAs; however, assuming institutions have the option of
using HAMP or another loan modification program acceptable to the FDIC. Three large assuming
institutions, representing 50 percent of total single-family SLA assets as of December 31, 2009, are
implementing Treasury’s HAMP.

We evaluated loan modification activity for the eight largest SLAs, representing 97 percent of the
single-family assets under SLAs as of July 31, 2009. Through December 31, 2009, the assuming


                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      The FDIC’s Loan Modification Program
                                                                                     Report No. EVAL-10-001
                                                                                              February 2010

institutions had completed 4,348 modifications and had 6,492 modifications in process. Collectively, the
eight SLAs had a total of 24,853 single-family loans that had been delinquent longer than 60 days or were
in foreclosure. FDIC officials noted that it is important to consider single-family portfolio characteristics
when assessing the success of an assuming institution’s loan modification program. Such characteristics
include the type of loan portfolio (e.g., non-traditional or subprime); the number of second lien loans,
non-owner occupied loans, or loans in bankruptcy; and the proportion of delinquent loans that are actually
eligible for modification.

The FDIC may also enter into public-private partnerships with private sector investors, which require the
purchasers to implement some form of LMP or retain single-family assets in FDIC receiverships. With
respect to receivership assets, the FDIC encourages, but does not require, servicers to pursue loan
modifications due to the temporary nature of the FDIC’s ownership of those assets. The FDIC may issue
guidance for pursuing loan modifications of receivership assets in the future.

President Obama’s strategy for restructuring or refinancing millions of at-risk mortgages tasked Treasury
with developing uniform guidance for loan modifications and required agencies such as the FDIC to seek
to apply uniform guidance to loans that the agency owns or guarantees. We evaluated the FDIC’s LMP
program against Treasury’s HAMP program. While certain important characteristics of the FDIC’s LMP
are consistent with HAMP, we identified other areas where the FDIC’s LMP program attributes and
controls could be strengthened, related to:

    •   The agreement with the assuming institution to follow the FDIC’s LMP and LMP guidelines and
        program details;
    •   FDIC LMP loan underwriting, file documentation, and certain reporting requirements;
    •   Requirements for the assuming institution to develop an internal control program to monitor
        program compliance and to detect loan modification fraud; and
    •   The FDIC’s plans for the independent monitoring of assuming institutions to ensure program
        compliance.

In comparing the FDIC’s LMP to Treasury’s HAMP, we acknowledge that HAMP is a much broader
program aimed at modifying millions of mortgages. Accordingly, we are not suggesting that the FDIC’s
program should be identical to HAMP; rather, this report discusses certain program principles and
attributes that could be strengthened in the FDIC LMP program to help ensure program success. We also
acknowledge that the FDIC’s LMP is a relatively new program and that the Division of Resolutions and
Receiverships is still in the process of implementing program controls.


OIG Recommendations and Management Response

We made five recommendations to enhance program controls related to: the LMP agreement with the
assuming institution and LMP guidelines; underwriting and clarifying information collection
requirements for fair housing purposes; assuming institution internal control programs; and FDIC
compliance monitoring of assuming institutions. DRR concurred with each recommendation and
proposed responsive actions to be completed by June 30, 2010.




                                  To view the full report, go to www.fdicig.gov
                               TABLE OF CONTENTS


EVALUATION OBJECTIVES AND APPROACH                                      1

BACKGROUND                                                              2

EVALUATION RESULTS                                                      3
  Status of the FDIC’s Loan Modification Program                        3

   Controls Over the FDIC’s Loan Modification Program                   5
      Agreement with Assuming Institution to Follow the                 6
        FDIC’s Loan Modification Program
      Loan Modification Program Guidelines                               7
      Loan Underwriting and File Documentation Requirements             8
      Reporting Requirements                                            11
      Assuming Institution Internal Control Programs to Monitor         13
        Program Compliance and to Detect Loan Modification Fraud
      Independent Monitoring of Assuming Institutions to Ensure         14
        Program Compliance

CONCLUSION AND RECOMMENDATIONS                                          16

CORPORATION COMMENTS AND OIG EVALUATION                                 17

APPENDIX I: Objectives, Scope, and Methodology                          18
APPENDIX II: OneWest Loan Modification Reporting for IndyMac Bank       20
APPENDIX III: Corporation Comments                                      21
APPENDIX IV: Management Response to Recommendations                     24

TABLES
  Table 1: Compilation of Loan Modification Activity of Selected SLAs   4
  Table 2: Comparison of FDIC LMP and Treasury HAMP                     9
    Underwriting and File Documentation Retention Practices
                      ACRONYMS IN THE REPORT


DRR    Division of Resolutions and Receiverships
GAO    Government Accountability Office
HAMP   Home Affordable Modification Program
IRS    Internal Revenue Service
LMP    Loan Modification Program
NPV    Net present value
OIG    Office of Inspector General
P&A    Purchase & Assumption
PPP    Private-Public Partnership
SLA    Shared-Loss Agreement
SPA    Servicer Participation Agreement
DATE:           February 4, 2010

TO:             Mitchell L. Glassman, Director
                Division of Resolutions and Receiverships

FROM:           E. Marshall Gentry
                Acting Assistant Inspector General for Evaluations

SUBJECT:        The FDIC's Loan Modification Program
                (Report No. EVAL-10-001)

This report presents the results of our evaluation of the FDIC's Loan Modification Program
(LMP). In 2008, the FDIC initiated a systematic and streamlined approach to loan modifications
at IndyMac Federal Bank, FSB (lndyMac), in order to place borrowers into affordable, long-term
mortgages while achieving an improved return for bankers and investors compared to the results
of foreclosure. In February 2009, President Obama tasked the Department of the Treasury
(Treasury) with program responsibility for developing and implementing uniform guidance for
loan modifications across the mortgage industry based, in part, on the FDIC's work at IndyMac.
Since November 2008, the FD IC has required most purchasers of failed bank assets to
implement the FDIC's LMP, Treasury's Home Affordable Modification Program (HAMP), or
some other loan modification program acceptable to the FDIC.

EVALUATION OBJECTIVES AND APPROACH

The purpose of this evaluation was to assess FDIC LMP implementation at institutions that had
acquired single-family loans from failed institutions. Our initial objectives were to

   •   Assess the FDIC's implementation of the loan modification program at IndyMac and

   •   Determine steps that the FDIC had taken to monitor implementation of its LMP at
       institutions that agreed to implement the program as part of transactions involving the
       FDIC and other financial regulatory agencies.

We tailored our objectives to address concerns communicated to us by Senator Charles Grassley
that the IndyMac LMP include controls to prevent borrowers who fraudulently obtained an
original mortgage from benefiting from an IndyMac loan modification. The FDIC subsequently
sold IndyMac to OneWest Bank, FSB, on March 19,2009. The FDIC also entered into a number
of additional agreements with assuming institutions to implement the FDIC's LMP during 2009.



                                              1
Accordingly, we revised our evaluation objectives to assess the:

   •   Extent to which the FDIC has required program implementation at assuming institutions.

   •   Internal controls over the program and how those controls compare to Treasury’s HAMP,
       including controls established to detect and prevent program fraud.

Appendix I includes additional detail on our objectives, scope, and methodology. We performed
our evaluation between April 2009 and October 2009 in accordance with the Quality Standards
for Inspections.


BACKGROUND
In 2008, the FDIC developed the LMP after taking over as conservator for IndyMac to achieve
improved value for the IndyMac Federal conservatorship by turning troubled loans into
performing loans and, thereby, avoiding unnecessary and costly foreclosures. The FDIC LMP
requires that a successful candidate for loan modification result in a (1) positive net present value
(NPV) as opposed to a foreclosure option and (2) monthly payment representing no more than
31 percent of the borrower’s gross monthly income, known as the front-end debt-to-income ratio.
The FDIC LMP utilizes a “waterfall” approach to reach the 31-percent ratio, by first lowering the
borrower’s interest rate, then extending the term of the loan not to exceed 40 years, and finally
forbearing principal to the end of the loan period. FDIC officials have noted that a critical
characteristic of the FDIC LMP process is that it has to be straightforward and efficient in order
to modify a large number of “at-risk” mortgages in a short period of time.

In February 2009, the Obama Administration announced The Homeowner Affordability and
Stability Plan, a $75 billion federal program designed to provide for a sweeping loan
modification program targeted at borrowers who are at risk of foreclosure. The plan tasked
Treasury with developing and implementing uniform guidance for the government’s loan
modification efforts. Treasury announced its HAMP guidelines on March 4, 2009, which built
on the work of Congressional leaders and the FDIC's LMP. Treasury’s HAMP uses the FDIC
LMP 31-percent “waterfall” process and the NPV test. However, HAMP also provides various
incentive payments to the loan servicer and borrower for achieving sustainable loan
modifications.

Under Treasury’s HAMP, the Federal National Mortgage Association (Fannie Mae) serves as the
financial agent and fulfills the role of administrator, record-keeper, and paying agent for the
program. The Federal Home Loan Mortgage Corporation (Freddie Mac) is the compliance agent
for the program and is responsible for ensuring that participating servicers comply with
Treasury’s guidelines.

As of August 2009, Treasury had signed Servicer Participation Agreements (SPA) with
38 servicers, who, along with 2,300 servicers of Fannie Mae and Freddie Mac loans, account for




                                                 2
more than 85 percent of the mortgage market.1 In an August 2009 report, Treasury stated that
more than 230,000 trial modifications had started and that the program was on pace to help 3 to
4 million homeowners over the next 3 years.


EVALUATION RESULTS

Status of the FDIC’s Loan Modification Program

The FDIC generally requires entities that acquire failed bank residential assets through large,
structured transactions to implement a loan modification program acceptable to the FDIC. These
structured transactions include shared-loss agreements (SLA) and private-public partnerships
(PPP). The FDIC encourages, but does not require, servicers of assets that remain in FDIC
receiverships to pursue loan modifications of single-family receivership loans.

Single-Family Loans Under Shared-Loss Agreements: Since November 2008, the FDIC has
been requiring purchasers (known as assuming institutions) of failed financial institutions to
implement the FDIC’s LMP or some other loan modification program acceptable to the FDIC,
such as HAMP, on the single-family loans that the purchasers are acquiring. The FDIC enters
into a purchase and assumption (P&A) agreement with the assuming institution, which explains
the terms of the sale and assets and liabilities that transfer to the assuming institution. Most
P&As also include an SLA wherein the assuming institution is responsible for managing and
selling the failed bank assets, and the FDIC guarantees the bulk of any losses incurred in the
disposition of the failed bank assets.2 Each SLA requires the assuming institution to implement
loan modification efforts, as follows:

        For each single family shared-loss loan in default or for which a default is reasonably
        foreseeable, the assuming bank shall undertake reasonable and customary loss mitigation
        efforts, in accordance with any of the following programs selected by Assuming Bank in
        its sole discretion, Exhibit 5 (FDIC Mortgage Loan Modification Program), the United
        States Treasury’s Home Affordable Modification Program Guidelines or any other
        modification program approved by the United States Treasury Department, the
        Corporation, the Board of Governors of the Federal Reserve System or any other
        governmental agency (it being understood that the Assuming Bank can select different
        programs for the various Single Family Shared-Loss Loans).

Through December 31, 2009, the FDIC had entered into 86 SLAs with single-family assets
totaling $53.2 billion.3 FDIC officials indicated that the FDIC’s loan modification program is the
default program for SLAs. The assuming institution must notify the FDIC if it wishes to use
another loan modification program, such as HAMP. An FDIC official indicated that larger
institutions may prefer to implement HAMP, because of Treasury’s incentive structure, while
smaller institutions without a large infrastructure may prefer the FDIC’s LMP. The FDIC

1
  Fannie Mae and Freddie Mac loans automatically participate in the HAMP.
2
  The FDIC generally guarantees 80 percent of the loss up to a specified cumulative loss amount and 95 percent
thereafter.
3
  The FDIC had also entered into 84 SLAs with commercial assets totaling $65 billion.


                                                        3
official indicated that three large assuming banks were implementing HAMP. Collectively, these
three SLAs represent 50 percent of the total single-family shared-loss assets through
December 31, 2009. At this point, the assuming banks for the remaining 83 SLAs have not
expressed an interest in implementing a program other than the FDIC’s LMP.

FDIC officials indicated that one reason that assuming institutions may prefer the FDIC’s LMP
over HAMP involves the scope of the loan modification effort. The FDIC’s LMP requires that
the assuming institution apply the loan modification efforts only to the single-family loans
acquired through the P&A transaction. Treasury requires HAMP participants to apply HAMP
loan modification efforts to all of the single-family loans that the institution or servicer owns.

We compiled loan modification activity for eight SLAs, representing 97 percent of the total
single-family assets under SLAs as of July 31, 2009. 4 Table 1 presents the results of our work.

Table 1: Compilation of Loan Modification Activity of Selected SLAs
    Shared-Loss      Initial SF    Months                As of December 31, 2009(4)                   Cumulative
    Agreement        Loans (in     under      Total     Loans         Loans in      Mods in           Mods
                     millions)     SLA        loans     Delinquent(1) Foreclosure Process             Completed
          1             $12,755           9    45,211          11,111           5,650      1,278(2)          1,384
          2             $11,069         13     21,685            3,864          2,393        1,079           2,821
          3             $10,280          7     37,294            9,186          6,426        4,013              1(3)
          4                $1,329           13     4,023           314             136            65            118
         5(4)                $223           11     1,033            96               0            54              24
          6                  $299            6     2,460           184              70             0               0
          7                  $217            5     2,628            86              34             3               0
         8(4)                $111            5     1,316            12               1             0               0
  Totals                  $36,283                115,650        24,853         14,710         6,492           4,348
Source: Office of Inspector General Review of Shared-Loss Certificates and other shared-loss reports.
(1)
    Loans delinquent 60 days or more, including loans in foreclosure.
(2)
    This SLA involves a mature loan modification program; as a result, fewer loans are eligible for modification.
(3)
    This assuming institution is participating in HAMP, which requires a 3-month trial period before modified loans
are considered completed.
(4)
    Activity is shown through October 31, 2009 and September 30, 2009 for 5 and 8, respectively. This was the most
recent data available to our office.

As shown, through December 31, 2009, assuming institutions for the eight SLAs had completed
4,348 modifications and had 6,492 modifications in process. Collectively, the eight SLAs had a
total of 24,853 single-family loans that had been delinquent longer than 60 days or were in
foreclosure.

FDIC officials noted that in gauging the success of an assuming institution’s loan modification
program, one must also consider single-family portfolio characteristics such as (1) the loan
product type distribution—for example, Option ARM (adjustable rate mortgage) products are

4
 We selected all SLAs with initial single-family loans in excess of $100 million, as of July 31, 2009. Loan
modification activity information was not available for one SLA with initial single-family loans of $128 million.
For this analysis, we did not select SLA transactions after July 31, 2009, because sufficient time would not have
elapsed for the assuming institutions to report meaningful loan modification activity.


                                                         4
difficult to successfully modify because the modified loan often does not meet the NPV test;
(2) the population of second-lien loans, non-owner occupied or second homes, and loans in
bankruptcy; and (3) the proportion of delinquent loans that are actually eligible for modification.
The maturity and type of loan modification program (e.g., HAMP or FDIC LMP) can also be a
factor in gauging an assuming institution’s loan modification program success.

Public-Private Partnership Transactions: The FDIC has also entered into several joint venture
agreements with private sector investors to manage pools of assets drawn from one or more
receiverships. In a PPP transaction, the FDIC sells a managing joint venture interest in a pool of
receivership assets. The buyer manages the assets, and the FDIC and the buyer share in any net
asset collections. Through October 19, 2009, the FDIC had entered into six PPP transactions
with residential and commercial assets totaling $4.91 billion. Under the PPP, the FDIC requires
the private-sector investor to implement a loan modification program acceptable to the FDIC.
Due to evaluation time constraints, we did not evaluate loan modification activity for PPP
transaction purchasers.

Single-Family Assets Retained in FDIC Receiverships: The FDIC retains failed financial
institution single-family assets that are not acquired by assuming institutions, or otherwise sold,
in failed bank receiverships. The FDIC may manage receivership assets internally or hire
external vendors to service the assets. As of October 2009, DRR officials indicated that the
FDIC had approximately 5,500 single-family loans valued at $950 million in receiverships. 5

DRR officials told us that the FDIC provides resolution assistance contractors and external
servicers of receivership assets with LMP documentation and encourages servicers to implement
loan modification efforts; however, the FDIC does not require servicers to pursue loan
modification efforts for single-family assets in receivership. The FDIC is working to package
receivership assets into structured sales transactions, and an FDIC official cited the temporary
nature of the FDIC’s ownership of receivership assets as a reason that the FDIC does not always
pursue loan modification efforts for receivership assets. The official also indicated that DRR is
developing guidance related to performing loan modifications for receivership assets.

Controls Over the FDIC’s Loan Modification Program

President Obama’s Homeowner Affordability and Stability Plan required Treasury to develop
uniform guidance for loan modifications and federal agencies to seek to apply uniform guidance
to loans that they own or guarantee. Both the FDIC’s LMP and HAMP possess similar key
controls related to income verification and owner-occupancy that are important in ensuring that
the modification effort is valid and sustainable, and these controls help to prevent or detect loan
modification fraud. However, we identified differences between the FDIC’s LMP and HAMP
where the FDIC’s program controls could be strengthened to be more consistent with HAMP
program principles.


5
  The FDIC also had approximately 20,600 single-family loans valued at almost $3.3 billion in receivership from
two failed banks for which the ownership of the loans was in question, and the FDIC was investigating these loans at
the time we issued our draft report. This ownership uncertainty had made it difficult for the FDIC to take action
with respect to those loans.


                                                         5
In February 2009, the Obama Administration announced the Homeowner Affordability and
Stability Plan as a comprehensive strategy to restructure or refinance millions of at-risk
mortgages. Among other things, the Plan provided that:

       Treasury will develop uniform guidance for loan modifications across the mortgage
       industry, working closely with the bank agencies and building on the FDIC's pioneering
       work. The Guidelines will be used for the Administration's new foreclosure prevention
       plan. Moreover, all financial institutions receiving Financial Stability Plan financial
       assistance going forward will be required to implement loan modification plans
       consistent with Treasury Guidance. Fannie Mae and Freddie Mac will use these
       guidelines for loans that they own or guarantee, and the Administration will work with
       regulators and other federal and state agencies to implement these guidelines across the
       entire mortgage market. The agencies will seek to apply these guidelines when
       permissible and appropriate to all loans owned or guaranteed by the federal government,
       including those owned or guaranteed by Ginnie Mae, the Federal Housing
       Administration, Treasury, the Federal Reserve, the FDIC, Veterans' Affairs and the
       Department of Agriculture.

An FDIC official noted that the FDIC’s LPM is consistent with Treasury’s HAMP because both
programs utilize the “waterfall” approach and NPV test. We also note that both the FDIC’s LMP
and HAMP possess some similar key controls, such as requirements for income verification, that
the loan modification involve the borrower’s primary residence, and that the property subject to
the loan modification be owner-occupied. Each of these controls are important in ensuring that
the modification effort is valid and sustainable, and these controls help to prevent or detect
fraudulent loan modification attempts.

The remaining sections of this report compare the FDIC’s LMP to Treasury’s HAMP and, where
appropriate, identify areas where the FDIC’s program could be strengthened.

Agreement with Assuming Institution to Follow the
FDIC’s Loan Modification Program

FDIC’s LMP: The P&A agreement is the governing document for the FDIC’s LMP and requires
the assuming institution to implement some form of loan modification program acceptable to the
FDIC on the single-family loans subject to the SLA. Exhibit 4.15A, Single Family Shared-Loss
Agreement, requires the assuming institution to manage and administer each single-family
shared-loss loan in accordance with the assuming bank’s usual and prudent business and banking
practices and customary servicing procedures and to comply with the terms of the modification
guidelines with the objective of (1) minimizing the loss to the assuming institution and the FDIC
and (2) maximizing the opportunity for qualified homeowners to remain in their homes.

The P&A also requires loan-specific monthly reporting for shared-loss claims and recoveries and
losses resulting from loan restructuring (loan modification); monthly submission of the servicing
file for each outstanding shared-loss loan; record retention requirements for the term of the
agreement; and an annual report signed by the assuming institution’s independent public
accountant. In the annual report, the auditors must indicate that they have reviewed the terms of



                                                6
the single-family SLA and in the course of their annual audit of the assuming institution’s books
and records, nothing came to their attention to suggest that any required computations on the part
of the assuming institution during such calendar year were not made. The P&A agreement also
provides the receiver or the FDIC in its corporate capacity the right to perform audits to
determine the assuming institution’s compliance with the provisions of the SLA. While these
P&A provisions are important, we note that most of the provisions focus on reporting
information about loss amounts as opposed to information about loan modification efforts.
Opportunities exist to strengthen the SLA, by incorporating, by reference, expanded program
guidance and other program requirements discussed in this report.

Treasury’s HAMP: Treasury’s program requires participants to sign an SPA and Financial
Instrument requiring the servicer to, among other things, follow program guidelines and
procedures and to maintain complete and accurate records. The Financial Instrument includes
requirements for audits, reporting, data retention, and a servicer internal control program.

The Financial Instrument provides that Freddie Mac, the Federal Housing Finance Agency, and
other parties designated by the Treasury or applicable law shall have the right to conduct
unannounced, informal onsite visits and to conduct formal onsite and offsite physical, personnel,
and information technology testing; security reviews; and audits of the servicer; and to examine
all books, records, and data related to the services provided and purchase price received in
connection with the program.

Under HAMP, the servicer is also required to certify annually that, among other things, the
servicer is complying with all program guidance; applicable federal, state, and local laws; and
has implemented an internal control program to monitor and detect loan modification fraud and
to monitor compliance with applicable consumer protection and fair lending laws. The financial
instrument acknowledges that the provision of false or misleading information to Fannie Mae or
Freddie Mac in connection with the program or pursuant to the agreement may constitute a
violation of: (a) Federal criminal law involving fraud, conflicts of interest, bribery, or gratuity
violations found in title 18 of the United States Code or (b) the civil False Claims Act (31 U.S.C.
Part 3729-3733).

Loan Modification Program Guidelines

FDIC LMP: The P&A agreement includes Exhibit 5, which is a 2-page document, entitled,
FDIC Mortgage Loan Modification Program. The exhibit provides detailed guidance for the
waterfall process and NPV test. However, as discussed in more detail later, the exhibit provides
limited underwriting guidance or servicer internal control/quality control requirements.

During the pilot LMP at IndyMac, the FDIC published on its public Web site FDIC Loan
Modification Program guidance, example marketing material, and FDIC Workout Program
Guidelines. These documents provide much more implementing guidance than the 2-page
exhibit. At a minimum, the FDIC should provide assuming institutions with LMP information
similar in detail to the IndyMac LMP guidance published on the FDIC’s Web site.
As discussed later, the FDIC has communicated extensive reporting requirements in the SLAs
and through a Data Reporting Package provided to each assuming institution.



                                                 7
Treasury’s HAMP: Treasury has issued extensive guidance and frequently asked question
documents related to HAMP. Key Treasury HAMP guidance includes:

   •   Supplemental Directive 09-01, Introduction of the Home Affordable Modification
       Program, dated April 6, 2009, which provides detailed guidance to servicers about
       HAMP eligibility, underwriting requirements, the modification process, fees and
       compensation, and servicer quality assurance program and program compliance
       requirements.

   •   Supplemental Directive 09-02, Fair Housing Obligations Under the Home Affordable
       Modification Program, dated April 21, 2009, which requires servicers to collect
       Government Monitoring Data and report to Fannie Mae to monitor compliance with the
       Fair Housing Act (42 U.S.C. 3601 et seq.) and other applicable fair lending and consumer
       protection laws.

   •   Home Affordable Modification Program (HAMP) Servicer Reporting Requirements,
       updated July 23, 2009, which requires servicers to provide detailed, loan-level data
       monthly to Fannie Mae.

Loan Underwriting and File Documentation Requirements

FDIC LMP: P&A agreement Exhibit 5 provides limited underwriting guidance, stating that “the
borrower’s monthly income shall be the amount of the borrower’s (along with any
co-borrowers’) documented and verified gross monthly income...” FDIC officials told us the
FDIC LMP includes other program practices to promote strong underwriting practices that are
not specifically reflected in the program guidance. For example, DRR representatives always
meet with the assuming institution within a month of the SLA transaction date to review the
assuming institution’s policies for underwriting. These would include policies and practices
related to requiring property appraisals and reviewing borrower credit reports associated with a
loan modification. A DRR official provided a Questionnaire for Assuming Institutions that is
used to gather such information. In addition, assuming institutions are required to manage SLA
assets consistent with their management of non-SLA assets and customary servicing procedures.
Finally, assuming institutions verify or determine certain underwriting factors, such as owner
occupancy and the property’s appraised value, as part of the loan modification process.
Notwithstanding, we believe that opportunities exist to clarify and strengthen program guidance
provided to assuming institutions for underwriting loan modifications. At a minimum, the FDIC
could strengthen controls by providing LMP program guidance to assuming institutions similar
to the written materials for the FDIC’s IndyMac LMP, as presented on the FDIC Web site.
Doing so would also promote program consistency among the assuming institutions.

Treasury’s HAMP: Treasury’s Supplemental Directive 09-02 includes detailed underwriting
guidance for verifying information such as borrower income, debts, and owner occupancy.
Table 2 compares loan underwriting and file documentation practices for the FDIC’s LMP and
Treasury’s HAMP.




                                               8
Table 2: Comparison of FDIC LMP and Treasury HAMP Underwriting and File
Documentation Retention Practices
                          FDIC’s IndyMac LMP (Web site) and               Treasury’s HAMP
                          SLA Documents
Income Verification       Either IRS Form 4506-T, Request for             Both 4506-T and pay stubs are required.
                          Transcript of Tax Return, or pay stub.
Self-Employment           FDIC and Treasury programs require additional documentation, including a signed tax
Income Documentation      return and year-to-date profit and loss statement. Treasury also allows other reliable
                          third-party documentation, such as a financial statement certified by an accountant,
                          business bank statements, or business tax returns prepared by an accountant.
Documentation for Other   FDIC and Treasury programs require bank statements for confirming certain sources of
Sources of Income         income (i.e., social security, disability, death benefits, alimony, child support).
Debts                     FDIC reviews assuming institutions’             Treasury’s program requires servicers to
                          underwriting practices during an initial SLA    obtain a credit report to validate
                          meeting with the assuming institution. The      installment debt and other liens and to
                          assuming institution is also required to        obtain documentation to support payments
                          manage and administer SLA loans consistent      on an installment debt not listed on the
                          with the assuming institution’s usual and       credit report.
                          prudent business and banking practices and
                          customary servicing procedures.

Owner Occupancy           Owner occupancy is required for                 Treasury’s program requires servicers to
                          participation in the FDIC LMP. FDIC             verify owner occupancy using a credit
                          reviews the assuming institutions’              report.
                          underwriting practices during an initial SLA
                          meeting with the assuming institution.
                          Owner occupancy may also be verifiable
                          from income verification source documents.

Appraisal                 FDIC reviews the assuming institution’s         Treasury’s program requires servicers to
                          underwriting practices during an initial SLA    use an automated valuation model or
                          meeting with the assuming institution.          broker price opinion.
                          Further, the assuming institution must
                          include the current property value,
                          determined by an appraisal method such as
                          an automated valuation model or broker
                          price opinion, in conducting the NPV test.

Suspicion of Fraud        The assuming institution must certify that      Servicers are not required to complete the
                          monthly shared-loss certificates are true,      modification if they suspect fraud.
                          complete, and correct.

Documentation             The SLA requires the assuming institution to    Treasury’s program requires servicers to
Retention                 maintain books and records during the term      maintain records and retain documents for
                          of the SLA sufficient to ensure and document    7 years and make records available for
                          compliance with the terms of the agreement,     audit or review.
                          including documentation of alternatives
                          considered with respect to defaulted loans or
                          loans for which default is reasonably
                          foreseeable.

Source: FDIC LPM guidance and HAMP Web site guidance.




                                                        9
In developing underwriting guidance for the FDIC LMP, we recommend clarifying that
borrowers should be reporting all sources of income, and that servicers should be verifying
material sources of borrower income. 6 LMP guidance should also clarify whether borrowers are
required to report alimony, separation maintenance, or child support income to qualify for the
LMP and to what extent rental income should be included as borrower income. 7

Fraud Prevention Steps Pertaining to the Original Underlying Mortgage: As referenced earlier,
Senator Charles Grassley expressed concerns
to our office about borrowers who                 Possible Antifraud Procedures
fraudulently obtained an original mortgage        1. To the extent that the original Uniform
benefiting from a government-sponsored loan           Residential Loan Application (Fannie Mae Form
modification. The Senator inquired about              1003) is available, compare reported income
preliminary indicators of fraud that could be         amounts to IRS Form 4506-T information for the
used to identify potentially fraudulent loans.        appropriate tax year for reasonableness.
The FDIC Chairman has stated that if an LMP 2. Review servicer system history for fraud
is to have a significant impact in reducing           characteristics or red flags, such as:
mortgage foreclosures, it is essential to             • Payments made by someone other than the
streamline the modification process while                  borrower;
providing effective protections against fraud.        • Questions about the validity of the home
                                                           address, mail returned, or servicer unable to
An FDIC official indicated that in order to
                                                           contact borrower;
reach large numbers of at-risk borrowers in a         • Indications of confusion over property
short amount of time, it may not be feasible to            ownership;
implement the same degree of verification             • Unusual changes in borrower information
and controls in approving a loan modification              (address, social security number).
that one would expect during an approval of
an initial loan. For this reason, the FDIC’s
LMP and HAMP employ a streamlined mortgage approval process. Of note, in October 2009,
Treasury relaxed servicer loan documentation requirements to improve servicer efficiency and
encourage borrowers to complete trial modifications. 8

We note that the owner occupancy requirement and most of the underwriting steps in the FDIC
IndyMac LMP and Treasury HAMP are effective controls in preventing a fraudulent loan from
benefiting from a loan modification. Beyond this, and consistent with the FDIC’s view that there
is a trade-off between preventing fraud and achieving sustainable loan modifications on a large
scale, we would suggest that that any antifraud measures related to the original mortgage be:
(1) carefully weighed with respect to timeliness and effectiveness of the additional antifraud
techniques and (2) limited to information readily available in the servicer loan file, servicer

6
  Treasury issued Supplemental Directive 09-07, Home Affordable Modification Program—Streamlined Borrower
Evaluation Process, dated October 8, 2009, to streamline HAMP program documentation requirements and
standardize the servicer evaluation process. This guidance stated that borrowers do not have to provide
documentation for passive and non-wage income constituting less than 20 percent of the borrower’s total income.
7
  Under HAMP, borrowers are not required to use alimony, separation maintenance, or child support income to
qualify for a loan modification. With respect to rental income, for rental of a portion of the borrower’s principal
residence, rental income should be calculated at 75 percent of the monthly gross rental income to account for
vacancy loss and maintenance expense. For non-principal residence rentals, the 75-percent income amount should
be further reduced by the monthly debt service on the property.
8
  Participants in Treasury’s HAMP must successfully complete a 3-month trial period.


                                                         10
system history, or an IRS Form 4506-T related to the tax year of the mortgage in question. We
also note that such procedures may be impractical given the condition of servicer files or
granularity of servicer system histories.

Implementation of antifraud procedures pertaining to the original mortgage may also be more
appropriate outside of the loan modification process. For example, a servicer may want to
review a sample of original mortgages from a common source before processing modifications to
determine if the mortgages exhibit fraud characteristics or review a sample of re-defaulted loans
for fraud characteristics.

We note that Treasury’s HAMP includes controls designed to prevent or detect fraudulent
modifications, including:

•   HAMP trial period plan documents require the borrower to certify in writing that “Under
    penalty of perjury, all documents and information…including the documents and information
    regarding my eligibility for the program, are true and correct.”
•   Special Inspector General for the Troubled Asset Relief Program Notice to Borrowers
    advising that any misstatement of material fact would subject the borrower to potential
    criminal investigation and prosecution and including contact information for a hotline
    number to report fraud, waste, abuse, mismanagement, or misrepresentation.
•   As discussed later in this report, Freddie Mac will be conducting periodic reviews of
    servicers that will include fraud-related procedures. Freddie Mac will also be performing
    separate Loan File Reviews that will include procedures designed to detect fraud.

Reporting Requirements

FDIC LMP: The FDIC’s standard SLA requires assuming institutions to provide a monthly
certificate consisting of:

    •   A schedule of loans for which a loss amount is being claimed;
    •   A schedule of loans for which a recovery amount was received;
    •   A schedule showing the calculation of the loss amount for each loan for which a loss is
        being claimed as a result of foreclosure, short sale, or loan restructuring (i.e., such as
        through a loan modification);
    •   A schedule showing the calculation of the gain or loss realized from a sale of each
        restructured loan; and
    •   A portfolio performance report and summary schedule.

The SLA also requires the assuming institution to submit the servicing file for single-family
assets under the SLA with specific fields of information.

An FDIC official provided a data reporting package that the FDIC provides to each assuming
institution. The data reporting package contains detailed guidance and templates for monthly or
quarterly reporting. Several required reports include information fields that will enable DRR
officials to monitor loan modification activity for larger institutions.



                                                 11
Specifically, assuming institutions that purchased single-family loan pools with an initial value
greater than $100 million must submit monthly a loss certificate report that includes a summary
of the performance of the single-family shared loss portfolio. The FDIC official indicated that
assuming institutions must also provide supplemental information related to call center and
mailing campaigns designed to reach eligible borrowers. Assuming institutions that purchase
single-family loan pools with an initial value less than $100 million must report quarterly but are
not required to report performance information related to loan modifications.

We acknowledge that the Data Reporting Package requirements are extensive and should provide
the FDIC with comprehensive information to support shared-loss claims. The Data Reporting
Package will also provide useful information for the reporting period about loan modifications
completed or in process from the larger assuming institutions. However, it is not clear that the
required reports will readily provide the FDIC with cumulative information necessary to monitor
LMP success without some level of DRR compilation or analysis. Ideally, assuming institution
LMP reporting should address basic areas related to loan modification activity such as:

     •    The number of single-family loans eligible for loan modification;
     •    The number of borrowers that the assuming institution has solicited for loan
          modification;
     •    The number of loan modification requests that have been declined;
     •    The extent to which modifications resulted in interest rate reductions, loan term
          extensions, and/or payment reductions; and
     •    Loan re-default rates following loan modification.

We note that the FDIC collected such information under the IndyMac LMP and that OneWest
Bank, which acquired IndyMac, continues to produce monthly reports for its investors containing
much of the abovementioned information. Appendix II presents excerpts from IndyMac loan
modification reporting information from OneWest Bank’s Web site. Because DRR is already
requiring extensive reporting from assuming institutions, we are not making a formal
recommendation. However, we would encourage DRR to collect current period information
about the number of loans eligible for modification and cumulative information about denied
modification requests, completed modifications, and re-defaulted modifications. Doing so would
provide DRR with information necessary to assess assuming institutions’ success in
implementing the LMP.

Collection and Reporting of Fair Housing Act Information: Treasury and the Department of
Housing and Urban Development have determined that loan modifications under HAMP are
subject to the protections of the Fair Housing Act. 9 Treasury is requiring servicers participating
in HAMP to collect government monitoring data on the race, ethnicity, and sex of borrowers
participating in loan modifications and to report such information to Fannie Mae.

The FDIC is not requiring assuming institutions to collect or report such government monitoring
data under the FDIC LMP. DRR officials noted that while HAMP may require servicers to
collect such data, providing information is voluntary and up to the applicant. Because applicants

9
    42 U.S.C. 3604(a), 3604(b), and 3604(f).


                                                  12
may elect not to provide such data, it may be difficult to draw meaningful conclusions about
servicer modification practices. Notwithstanding, we believe that DRR should consult with the
FDIC’s Legal Division to determine whether the FDIC should require assuming institutions to
request such information from loan modification applicants.

Treasury’s HAMP: Treasury has issued extensive reporting requirements for servicers
participating in HAMP. Supplemental Directive 09-06, Home Affordable Modification
Program-Data Collection and Reporting Requirements Guidance, dated September 11, 2009,
requires that servicers provide monthly HAMP loan-level data to Fannie Mae, including:

   •   Borrower and property information;
   •   Government monitoring data for Home Mortgage Disclosure Act purposes;
   •   NPV Model input information; and
   •   Reason codes for loans that are not approved for, or that withdraw from, HAMP.

Treasury also requires servicers to report on a loan-by-loan basis:

   •   Information about why loans that the servicer evaluated for a modification were not
       modified, or why a trial modification was not completed;
   •   The status and disposition of eligible loans not modified, including trial modifications not
       completed; and
   •   The status and disposition of loans that were modified but failed to remain in good
       standing because they became 90 or more days delinquent.

Assuming Institution Internal Control Programs to Monitor Program Compliance
and to Detect Loan Modification Fraud

FDIC LMP: As discussed earlier, the SLA requires the servicer’s annual audit report to include
a negative assurance statement with respect to the accuracy of computations required under the
SLA. With the exception of the annual audit statement, we did not identify any specific
requirements for the assuming institution to maintain an internal control program or monitoring
program associated with the SLA.

Treasury’s HAMP: Within the Financial Instrument agreement between Fannie Mae and the
Servicer, Section 4, Internal Control Program, states the servicer shall develop, enforce, and
review on a quarterly basis for effectiveness an internal control program designed to: (1) ensure
effective delivery of services in connection with the program and compliance with the program
documentation, (2) effectively monitor and detect loan modification fraud, and (3) effectively
monitor compliance with applicable consumer protection and fair lending laws. The internal
control program must include documentation of the control objectives for program activities, the
associated control techniques, and mechanisms for testing and validating the controls.

Moreover, the agreement requires the servicer to provide Freddie Mac with access to all internal
control reviews and reports that relate to services under the program performed by the servicer
and its independent auditing firm to enable Freddie Mac to fulfill its duties as compliance agent.



                                                13
Supplemental Directive 09-01 includes a section on program compliance stating that servicers
must comply with the HAMP requirements and must document the execution of loan evaluation,
loan modification, and accounting processes. Servicers must also develop and execute a quality
assurance program that includes either a statistically based (with a 95-percent confidence level)
or a 10-percent stratified sample of loans modified drawn within 30-45 days of final modification
and reported on within 30-45 days of review. In addition, a trending analysis must be performed
on a rolling 12-month basis.

Independent Monitoring of Assuming Institutions to Ensure
Program Compliance

FDIC LMP: The FDIC has entered into basic ordering agreements with seven contractors to
provide surveillance, oversight, and compliance monitoring of single-family shared-loss loans
under SLAs. 10 The FDIC will award task orders to the contractors to monitor individual
assuming institutions. As of January 20, 2010, contractors had completed visitations at
5 assuming institutions and had 4 additional visitations in progress. The scope of work requires
the contractor to:

•    Review and comment on the assuming bank’s internal audit program for auditing compliance
     with the single-family SLA.
•    Review and process monthly certificates and review certificates to determine whether the
     related loss amounts appear reasonable and that loss mitigation efforts are adequately
     documented on the certificate.
•    Ensure compliance with agreement reporting and asset management requirements.
•    Plan and conduct compliance visitations, exit meetings, and prepare compliance visitation
     reports. Visitations will be on-site, semi-annually or annually, based on the risk and size of
     the shared-loss asset portfolio.
•    Evaluate and document the adequacy of corrective actions taken in response to visitation
     reports.

We concluded that most of the compliance steps listed above are related to shared-loss
compliance as opposed to loan modification program compliance. We noted that an earlier
version of the scope of work included the following step under compliance visitations:

        Selecting a sample of loan modifications [and] verifying that the loan modifications and
        respective calculations meet the terms of Qualifying Mortgage Loans and the objective of
        the FDIC Modification Program and/or Home Affordability Modification Program.

However, we did not see this step in the final executed contract. DRR officials indicated that
they expected the SLA compliance contractors to include LMP monitoring and compliance
procedures in their SLA compliance reviews. We also spoke with a representative from one of
the contractors who indicated that it was his understanding that his firm would be monitoring the
assuming institution’s compliance with the FDIC’s LMP. Still, we recommend that the FDIC

10
  The FDIC has also entered into surveillance, oversight, and compliance monitoring contracts for the FDIC’s
commercial asset SLAs.


                                                       14
explicitly include in the surveillance and monitoring contract the FDIC’s expectation that the
contractor’s efforts should include assessing the assuming institution’s compliance with the
LMP. 11

Additionally, the FDIC Office of Inspector General (OIG) will be periodically performing
reviews of assuming institutions’ compliance with SLAs, and such reviews will include
procedures pertaining to LMP compliance. The OIG conducted the first of such reviews in
October 2009.

Treasury’s HAMP: Treasury has selected Freddie Mac to serve as its compliance agent for the
HAMP. In this role, Freddie Mac employees and contractors will conduct independent
compliance assessments of mortgage servicers and review loan-level data for evidence of
appropriate eligibility consideration, solicitation, cessation of foreclosure sales during HAMP
consideration, and overall compliance with HAMP guidelines.

The scope of these assessments will include, among other things, an evaluation of documented
evidence to confirm adherence to HAMP requirements with respect to the following:

     •   Evaluation of borrower and property eligibility;
     •   Compliance with underwriting guidelines;
     •   Execution of NPV/waterfall processes;
     •   Accurate processing of borrower, investor, and incentive payments; and
     •   Data integrity

Freddie Mac will also evaluate the effectiveness of the servicer’s quality assurance program, to
include: the timing and size of the servicer’s sample selection, the scope of the servicer’s quality
assurance reviews, and the servicer’s reporting and remediation process. Freddie Mac will also
evaluate the servicer’s fraud prevention controls as part of the on-site audits.

According to a July 2009 GAO report, 12 Freddie Mac compliance reviews will take three
approaches:

     •   Announced reviews (remote and on-site), which will provide a structured and consistent
         process to assess servicer compliance;
     •   Unannounced reviews (remote and on-site), which will provide the ability to review any
         loan at any time; and
     •   Data analysis, including third-party data verification, which will provide ongoing
         analyses of servicers to identify patterns or trends that require investigation.


11
   With respect to assuming institutions that elect to implement HAMP, an FDIC official noted that HAMP pays
servicers incentive fees for completing and sustaining individual loan modifications and that assuming institutions
should be including received incentives to offset loss claims under the SLA. The official stated that the surveillance,
oversight, and compliance monitoring contractors should perform procedures to ensure that assuming institutions are
accurately considering HAMP incentive payments received in their shared-loss calculations.
12
   Troubled Asset Relief Program: Treasury Actions Needed to Make the Home Affordable Modification Program
More Transparent and Accountable, GAO-09-837, dated July 2009.


                                                         15
The GAO report noted that Freddie Mac conducted trial period reviews, which are on-site audits
and file reviews targeting larger servicers and are intended to assess the strength of the servicer’s
control environment, systems, and staffing. Freddie Mac will also develop a “second look”
process to review non-performing loans not offered a HAMP modification, to assess whether
servicers appropriately evaluate loans for HAMP eligibility.

We visited Freddie Mac’s Office of Compliance to understand more about its planned
monitoring efforts. We reviewed oversight program documentation and determined that Freddie
Mac’s program will include the following elements:

   •   Data Analytics—Freddie Mac will analyze servicer HAMP performance information to
       identify trends, outliers, and anomalies for further review.
   •   Risk Assessment Framework—Freddie Mac will perform risk assessments of
       participating servicers to identify servicers presenting greater risk to HAMP and to target
       servicers requiring additional review.
   •   Management Compliance Reviews—Freddie Mac will perform periodic on-site reviews
       of servicers’ internal control programs and compliance with HAMP.
   •   Loan File Compliance Reviews—Freddie Mac will remotely review a sample of imaged
       loan files from participating servicers to assess program compliance.

We verified that Freddie Mac will not be performing compliance reviews of loan modification
efforts outside of the HAMP (such as the FDIC’s LMP).


CONCLUSION AND RECOMMENDATIONS
The FDIC’s pioneering loan modification work at IndyMac Bank became the basis for
Treasury’s comprehensive, industry-wide HAMP. Still, from November 2008 through
December 2009, the FDIC entered into 86 SLAs with single-family assets totaling $53.2 billion.
While some of the larger assuming institutions may elect to implement Treasury’s HAMP, the
FDIC’s LPM is the default loan modification program, and most assuming institutions are
electing to follow the FDIC’s program.

President Obama’s strategy for restructuring or refinancing millions of at-risk mortgages tasked
Treasury with developing uniform guidance for loan modifications and required agencies such as
the FDIC to seek to apply uniform guidance to loans that the agency owns or guarantees. We
evaluated the FDIC’s LMP program against Treasury’s HAMP program. While certain
characteristics of the FDIC’s LMP, such as the use of an NPV test, waterfall process, and owner
occupancy requirements, are consistent with Treasury’s HAMP, we identified other areas where
the FDIC’s LMP program attributes and controls could be strengthened or better documented.
Doing so will promote program consistency among assuming institutions and help to ensure
FDIC LMP success.

Accordingly, we recommend that the Director, DRR:




                                                 16
   1. Review the standard SLA and LMP guidance documents to ensure they contain sufficient
      information about the FDIC LMP and the assuming institution’s responsibilities under
      the program. We would suggest program guidance in similar detail to the IndyMac Loan
      Modification Program guidelines on the FDIC’s public Web site.

   2. Document within FDIC LMP guidance, loan modification underwriting requirements
      discussed in Table 2 of this report to be more consistent with Treasury’s HAMP
      underwriting requirements, in particular, pertaining to verification of borrower debts and
      material sources of borrower income.

   3. Research with the FDIC’s Legal Division whether assuming institutions should request
      borrowers being considered for loan modification to provide demographic information
      similar to that requested for the HAMP related to consumer protection and fair lending
      laws.

   4. Require assuming institutions to maintain an internal control program for monitoring
      compliance with the FDIC’s LMP and for detecting loan modification fraud.

   5. Modify the scope of work for the SLA surveillance, oversight, and compliance
      monitoring contractors to explicitly reflect the FDIC’s expectations with respect to LMP
      contractor monitoring and compliance efforts.


CORPORATION COMMENTS AND OIG EVALUATION
DRR management provided a written response, dated January 15, 2010, to a draft of this report.
The response is presented in its entirety in Appendix III. Management concurred with our five
recommendations and proposed responsive actions to be completed by June 30, 2010. A
summary of management’s responses to our recommendations is presented in Appendix IV.




                                              17
                                                                                        Appendix I


                  OBJECTIVES, SCOPE, AND METHODOLOGY
The purpose of this evaluation was to assess the FDIC’s implementation of the FDIC LMP at
institutions that had acquired single-family loan assets from failed banks. Initially our objectives
were to

   •   Assess the FDIC’s implementation of the loan modification program at IndyMac,
       including determining the:
           o Extent to which the program had been implemented in terms of number and dollar
              value of loans;
           o Types of measures and mechanisms that the FDIC has established to evaluate the
              success of the program and how they compare to those used by other federal
              regulators;
           o Reasonableness of steps taken, including the program’s qualifying criteria, to
              ensure that modification of loans maximizes their value; and
           o Internal controls established to detect and prevent participation in the program by
              those who fraudulently obtained mortgages.

   •   Determine steps that the FDIC has taken to monitor implementation of its Loan
       Modification Program at institutions that agreed to implement the program as part of
       transactions involving the FDIC and other financial regulatory agencies.

Following the issuance of our February 2009 evaluation engagement letter for this assignment,
on March 19, 2009, the FDIC sold IndyMac to OneWest Bank, FSB. During 2009, the FDIC
also entered into a number of additional agreements with assuming institutions to implement the
FDIC’s LMP. Accordingly, we revised our objectives to assess the:

   •   Extent to which the FDIC has required program implementation at assuming institutions.
   •   Internal controls over the program and how those controls compare to Treasury’s HAMP,
       including controls established to detect and prevent program fraud.

To accomplish our objectives, we:

   •   Interviewed DRR officials and other FDIC officials responsible for implementing and
       overseeing the FDIC’s LMP;
   •   Reviewed SLA agreements and reporting requirements;
   •   Compiled loan modification activity for eight SLAs, representing 97 percent of the total
       single-family assets under SLAs as of July 31, 2009.
   •   Reviewed monthly loss certificates submitted by selected assuming institutions;
   •   Reviewed IndyMac LMP program guidance from the FDIC’s Web site;
   •   Reviewed Treasury HAMP guidance, including the SPA and Financial Instrument;
   •   Researched mortgage fraud prevention and detection techniques, including mortgage
       fraud prevention literature from Freddie Mac and Fannie Mae;
   •   Reviewed the FDIC’s oversight, surveillance, and compliance monitoring contract scope
       of work; and



                                                18
                                                                                     Appendix I


   •   Interviewed Freddie Mac officials and reviewed Freddie Mac documents and audit
       programs for monitoring HAMP servicers.

With respect to our original evaluation objectives, Appendix II provides information about the
extent to which the loan modification program has been implemented at IndyMac through
August 31, 2009.

We performed our evaluation between April 2009 and October 2009 in accordance with the
Quality Standards for Inspections.




                                               19
                                                                                                                                                         Appendix II

 ONEWEST LOAN MODIFICATION REPORTING FOR INDYMAC BANK

 Excerpts from OneWest Bank Report Entitled: FDIC Loan Modification Program Summary Report for Indymac MBS
 [Mortgage-Backed Securities] and ABS [Asset-Backed Securities] Investors—Data as of August 31, 2009 (Dollars in Millions)
Original Information at Settlement                   Current Period Information                          Total FDIC Modifications Completed Since Program Inception
              Original    Original     Current         Current     60+ Days     60+ Days    Total Mod         Type I     Type II        Type III:      Total: All   Total: All
               Loan        Unpaid       Loan             UPB      Delinquent Delinquent      Offers          Interest Interest Rate   Interest Rate      Mods         Mods
               Count      Principal    Count                         Loan      Loan UPB     Mailed and         Rate   Reduction +     Red. +Amort      Completed    Completed
                          Balance                                    Count                  Awaiting       Reduction Amortization    Ext. + Principal   (Count)      (UPB)
                           (UPB)                                                            Borrower           Only    Extension       Forbearance
                                                                                            Response
IndyMac        500,392      $125,376       219,785      $59,959         53,504   $16,716        71,523         8,319          2,994            3,951       15,264       $4,595
MBS
Grand Total              Information not Presented in Investor Summary Report                  101,587        12,230          4,362            5,470       22,062       $6,593




Performing/Current Loan Modifications              Delinquent/Re-Defaulted FDIC Loan Modifications (60+ Days Delinquent)                 Estimated Economics of Modification
                Total        Total            Type I     Type II   Type III: Interest     Total Re-     Total Re-   Re-default        Estimated NPV     Estimated        Net
             Performing Performing           Interest    Interest     Rate Red.        Defaulted Mods   Defaulted     Mod                 Cost of      NPB Cost of   Estimated
             Loan Mods    Loan Mod             Rate       Rate      +Amort. Ext. +      (including 26     Mods     Percentage           Foreclosure   Mod Incurred Benefit of
                            (UPB)              Red.       Red.+       Principal       liquidated mods)   (UPB)                        Avoided at the    at Time of      Mod
                                               Only      Amort.      Forbearance           (Count)                                     Time of Mod         Mod
                                                           Ext.
IndyMac            12,162         $3,672        2,244         469                363              3,102      $926        20.3%               $2,277         $1,714        $564
MBS
Grand Total        17,216         $5,186        3,578             726            516              4,846         $1,410       22.0%           $3,270         $2,469        $801
 Source: OneWest Bank Web Site.




                                                                                       20
                                                                                      Appendix III
                                    Corporation Comments



550 17th Street NW, Washington, D.C. 20429-9990                         Division of Resolution and Receiverships

 DATE:             January 15, 2010

 TO:               E. Marshall Gentry
                   Acting Assistant Inspector General for Evaluations

 FROM:             Mitchell L. Glassman, Director
                   Division of Resolutions and Receiverships

 SUBJECT:          Response to Draft Audit Report Entitled, The FDIC's Loan
                   Modification Program (Assignment No. 2009-018)

 This memorandum is in response to the recommendations in the subject draft audit report dated
 November 20, 2009.

 OIG Audit Recommendation 1: Review the standard SLA and LMP guidance documents to
 ensure they contain sufficient information about the FDIC LMP and the assuming institution’s
 responsibilities under the program. We would suggest program guidance in similar detail to the
 IndyMac Loan Modification Program guidelines on the FDIC’s public Web site.

        DRR Response: DRR agrees with the recommendation. Exhibit 5 provided in the
        standard Single Family Shared-Loss agreement outlines the broad documentation
        requirements; however, DRR agrees with the OIG’s recommendation that more detailed
        guidelines should be provided to Loss Share institutions. On or before February 26,
        2010, DRR will finalize a guidebook on Loss Share Loan Modification requirements.
        This will include detail on the appropriate documentation expected in order to verify the
        assuming institution is fulfilling its contractual duties. DRR is currently documenting,
        analyzing, and updating processes for the Loss Share Loan Modification Program (LMP).
        DRR will review HAMP materials and adapt them to Loss Share policies and procedures
        as appropriate. We expect to complete documentation of the accompanying procedures
        by February 26, 2010. Additionally, DRR plans to include a more detailed discussion of
        loan modification documentation requirements and NPV modeling expectations in the
        initial kickoff meeting with new Shared-Loss institutions, which is usually held within 30
        days of an institution’s failure. To date, the kickoff meeting includes a discussion of
        Exhibit 5, participation in HAMP, the restructure loss calculation, and loan level
        reporting on restructured loans.

 OIG Audit Recommendation 2: Document within FDIC LMP guidance, loan modification
 underwriting requirements discussed in Table 2 of this report to be more consistent with
 Treasury’s HAMP underwriting requirements, in particular, pertaining to verification of
 borrower debts and material sources of borrower income.

        DRR Response: DRR agrees with the recommendation. Exhibit 5 provided in the
        standard Single Family Shared-Loss Agreement requires: “(1) the borrower’s monthly
        income shall be the amount of the borrower’s (along with any co-borrowers’)




                                                  21
                                                                               Appendix III




       documented and verified gross monthly income”. DRR will expand upon this statement
       in the detailed guidelines under development. These guidelines are expected to be
       completed on or before February 26, 2010. However, these guidelines will not be as
       restrictive or prescriptive as the income documentation and verification standards
       required under HAMP. These HAMP standards may have contributed to the low
       conversion rate under HAMP for trial modifications and have led to HAMP revisions.
       The guidance DRR is working on will contain the same income verification requirements
       instituted in the FDIC modification program piloted at IndyMac. Shared-Loss
       institutions will be expected to have recent pay stub information and a signed 4506T on file
       for all modified borrowers (additional documentation will be required for self-
       employed borrowers or borrowers whose primary source of income is benefits such as
       social security or pension income).

OIG Audit Recommendation 3: Research with the FDIC’s Legal Division whether assuming
institutions should request borrowers being considered for loan modification to provide
demographic information similar to that requested for the HAMP related to consumer protection
and fair lending laws.

       DRR Response: DRR agrees with the recommendation. We will work with the Legal
       Division to determine whether collection of this information is permitted. We will also
       assess operational considerations and the reliability of data to be collected. We plan to
       provide the results of our research by June 30, 2010.

OIG Audit Recommendation 4: Require assuming institutions to maintain an internal control
program for monitoring compliance with the FDIC’s LMP and for detecting loan modification
fraud.

       DRR Response: DRR agrees that the assuming institutions should be required to maintain
       an internal control program for monitoring compliance with the FDIC’s LMP and for
       detecting loan modification fraud. Section 3.2, “Duties of the Assuming Bank,” of the
       standard Single Family Shared-Loss Agreement establishes standards for performance of
       duties which are the basis for internal controls under each acquiring institution’s
       corporate governance provisions. Compliance Review Contractors are responsible for
       reviewing the retained documentation and verifying contract compliance. This review
       includes the performance of the Assuming Bank with regard to Section 3.2.

       Furthermore, DRR will communicate during the initial meeting, the FDIC's expectation
       that assuming banks should maintain an internal control program to include control
       techniques to help ensure the success of the institution's loan modification efforts. DRR
       will also amend future Single-Family Shared-Loss Agreements to include a provision
       similar to Section 2.3 in the Commercial Shared-Loss Agreement which explicitly
       requires the Assuming Bank to perform on an annual basis an internal audit of its
       compliance with the provisions of the Shared-Loss Agreement. DRR plans to have this
       provision in place by February 26, 2010, for future agreements.



                                                2


                                               22
                                                                                Appendix III



        In addition, Section 2.2, Auditor Report; Right to Audit, provides “Within ninety (90)
        days after the end of each fiscal year during which the Receiver makes any payment to
        the Assuming Bank under this Single Family Shared-Loss Agreement, the Assuming
        Bank shall deliver to the Corporation and to the Receiver a report signed by its
        independent public accountants stating that they have reviewed the terms of this Single
        Family Shared-Loss Agreement and that, in the course of their annual audit of the
        Assuming Bank’s books and records, nothing has come to their attention suggesting that
        any computations required to be made by the Assuming Bank during such year pursuant
        to this Article II were not made by the Assuming Bank in accordance herewith.” DRR is
        in consultations with large accounting firms on the interpretation of the above section of
        the agreement and to clarify the responsibilities of the independent public accountant.

        Additionally, the Assuming Bank is required to retain records at all times during the term
        of the Single Family Shared-Loss Agreement which are sufficient to document
        compliance including: “(a) documentation of alternatives considered with respect to
        defaulted loans or loans for which default is reasonably foreseeable, (b) documentation
        showing the calculation of loss for claims submitted to the Receiver, (c) retention of
        documents that support each line item on the loss claim forms, and (d) documentation
        with respect to the Recovery Amount on loans for which the Receiver has made a loss-
        share payment”.

OIG Audit Recommendation 5: Modify the scope of work for the SLA surveillance, oversight,
and compliance monitoring contractors to explicitly reflect the FDIC’s expectations with respect
to LMP contractor monitoring and compliance efforts.

        DRR Response: DRR agrees with the recommendation. DRR reviews in detail with all
        Compliance Review Contractors the FDIC modification program and HAMP. On or
        before February 26, 2010, DRR will also develop standardized checklists for Compliance
        Review Contractors.




cc:     Michael Krimminger, Special Advisor for Policy
        Jim Wigand, DRR
        Herb Held, DRR
        Richard Fischman, DRR
        Clare Rowley, DIR
        James Angel, OERM
        Steven Trout, DRR
        Howard Cope, DRR



                                                 3




                                                23
                                                                                                                                          Appendix IV


                                   MANAGEMENT RESPONSE TO RECOMMENDATIONS
This table presents the management response on the recommendations in our report and the status of the recommendations as of the
date of report issuance.

  Rec.                                                                                      Expected         Monetary    Resolved:a Yes    Open or
 Number              Corrective Action: Taken or Planned/Status                          Completion Date      Benefits       or No         Closedb
    1      DRR will finalize a guidebook on loss share loan modification                 February 26, 2010      $0            Yes           Open
           requirements to include detail on the appropriate documentation
           expected in order to verify the assuming institution is fulfilling its
           contractual duties. DRR will review HAMP materials and adapt
           them to loss share policies and procedures as appropriate.
           Additionally, DRR plans to include a more detailed discussion of
           loan modification documentation requirements and NPV modeling
           expectations in the initial kickoff meeting with new shared-loss
           institutions.
    2      DRR is developing guidance to include the same income                         February 26, 2010      $0            Yes           Open
           verification requirements instituted in the FDIC modification
           program piloted at IndyMac.
    3      DRR will work with the Legal Division to determine whether                      June 30, 2010         $0           Yes           Open
           collection of demographic information for consumer protection and
           fair lending laws is permitted. DRR will also assess operational
           considerations and the reliability of data to be collected.
    4      DRR will communicate, during the initial meeting, the FDIC’s                  February 26, 2010      $0            Yes           Open
           expectation that assuming banks should maintain an internal control
           program to include control techniques to help ensure the success of
           the institution’s loan modification efforts.

           DRR will also amend future single-family SLAs to require the
           assuming bank to perform an annual internal audit of its compliance
           with SLA provisions.

           DRR is also in consultations with large accounting firms on the
           interpretation of SLA Section 2.2, Auditor Report: Right to Audit,
           to clarify the responsibilities of the independent public accountant.




                                                                                    24
                                                                                                                                                Appendix IV


 Rec.                                                                                    Expected           Monetary      Resolved:a Yes         Open or
Number                  Corrective Action: Taken or Planned/Status                    Completion Date        Benefits         or No              Closedb
      5       DRR noted that it reviews the FDIC loan modification program and        February 26, 2010          $0             Yes                Open
              HAMP in detail with all compliance review contractors and that
              DRR will develop standardized checklists for the compliance
              review contractors.
a
    Resolved - (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                   as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive, the recommendation can be closed.




                                                                               25
